App. 1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007 IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY
ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 17th day of October, two
thousand nineteen.
PRESENT:
JOHN M. WALKER, JR.,
SUSAN L. CARNEY,
Circuit Judges,
JOHN G. KOELTL,
District Judge.*

* Judge John G. Koeltl, of the United States District Court
for the Southern District of New York, sitting by designation.

App. 2
DR. SHIMON WARONKER,
Plaintiff-Appellant,
No. 19-407

v.
HEMPSTEAD UNION FREE
SCHOOL DISTRICT, BOARD OF
EDUCATION OF THE HEMPSTEAD
SCHOOL DISTRICT, DAVID B.
GATES, IN HIS INDIVIDUAL AND
OFFICIAL CAPACITY, RANDY
STITH, IN HIS INDIVIDUAL AND
OFFICIAL CAPACITY, LAMONT E.
JACKSON, IN HIS INDIVIDUAL
AND OFFICIAL CAPACITY, PATRICIA WRIGHT, AS A NECESSARY
PARTY IN HER CAPACITY AS

CLERK OF THE HEMPSTEAD
SCHOOL DISTRICT,
Defendants-Appellees.
FOR PLAINTIFFAPPELLANT:

FREDERICK K. BREWINGTON,
Law Offices of Frederick K.
Brewington, Hempstead, NY.

FOR DEFENDANTS- JONATHAN L. SCHER (Austin
APPELLEES:
Graff, on the brief ), The Scher
Law Firm, LLP, Carle Place,
NY.
Appeal from a judgment of the United States
District Court for the Eastern District of New York
(Hurley, J.).

App. 3
UPON DUE CONSIDERATION WHEREOF,
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment entered on January 18,
2019, is AFFIRMED.
Shimon Waronker appeals from a judgment of the
United States District Court for the Eastern District of
New York (Hurley, J.), dismissing his claims under Federal Rule of Civil Procedure 12(b)(6) and denying him
leave to amend his complaint. We assume the parties’
familiarity with the underlying facts, procedural history, and arguments on appeal, to which we refer only
as necessary to explain our decision to affirm.
We draw the following factual allegations from
Waronker’s complaint, taking them as true for the
purposes of evaluating a motion to dismiss. This action
stems from Waronker’s work as superintendent for
the Hempstead Union Free School District (the “School
District”). The School District has a long history of
academic problems and financial mismanagement.
Waronker, however, believed that “[his] past successful
transformative efforts in [other] schools . . . would enable him to do what was necessary for [the] School
District.” Joint App’x 3-4. Accordingly, when he was
hired as the School District’s superintendent in 2017,
Waronker took several steps towards “reshaping the
structure of administration, services[,] and education
in the District.” Id. at 17. These included hiring and
firing personnel, forming collaborations with outside
educational organizations, contracting with “a Forensic Auditing Firm” to review the School District’s

App. 4
books, and hiring “[s]pecial investigators to . . . root out
the corruption and mismanagement.” Id. at 26.
At some point, however, the Board of Education of
the Hempstead School District (the “Board”) started
to resist Waronker’s reform efforts, and in November
2017, it fired “the Special Investigators who were looking at abuse, mismanagement and possible corruption.” Id. at 29. In response, Waronker sent an email to
the Board on December 6, 2017 (the “Board Email”),
advising that he had “consulted with several law enforcement agencies” about “matters [that] . . . appear
to be both unlawful and unethical.” Id. Three weeks
later, the Board suspended Waronker’s authority to
act as superintendent. The Board’s action prompted
Waronker to distribute an open letter to the Hempstead community (the “Community Letter”) in which
he urged members to “collaborate with me to make
Hempstead Schools thrive again” and warned that
“[p]olitics, self-interest[ ], patronage, vendettas, threats,
and cover-ups cannot rule the day.” Id. at 31. Four days
later, on January 9, 2018, the Board placed Waronker
on paid administrative leave. It did so without prior
notice to Waronker and without providing him a presuspension hearing.
On January 19, 2018, Waronker sued the School
District, the Board, and several School District employees (collectively, “Defendants-Appellees”), alleging
claims under (1) the Due Process Clause, for deprivation of both property and liberty interests; (2) the First
Amendment, for unlawful retaliation; and (3) New
York law, for breach of contract and retaliation. After

App. 5
Defendants-Appellees moved to dismiss the complaint,
Waronker sought leave to amend his complaint to
add allegations concerning certain “Specifications and
Charges” that the School District had recently filed
against Waronker in what appears to be an administrative proceeding. Less than three weeks later, in January 2019, the District Court dismissed Waronker’s
federal-law claims under Rule 12(b)(6). It further declined to exercise supplemental jurisdiction over his
state-law claims and denied Waronker leave to amend
his complaint on futility grounds.
We “review de novo the grant of a Rule 12(b)(6)
motion to dismiss for failure to state a claim, accepting
all factual allegations as true and drawing all reasonable inferences in favor of the plaintiff.” Montero v. City
of Yonkers, 890 F.3d 386, 394 (2d Cir. 2018) (citation
omitted). We review “a district court’s denial of leave to
amend for abuse of discretion, unless the denial was
based on an interpretation of law, such as futility, in
which case we review the legal conclusion de novo.”
Panther Partners Inc. v. Ikanos Commc’ns, Inc., 681
F.3d 114, 119 (2d Cir. 2012).
1. First Amendment Retaliation
Waronker asserts that Defendants-Appellees violated his First Amendment right to free speech when
they retaliated against him for speaking out about corruption and academic mismanagement occurring in
the School District. His claim is based on three communications: (1) the Board Email, (2) the Community

App. 6
Letter, and (3) the set of communications between
Waronker and several law enforcement agencies that
was referenced in the Board Email.
To state a retaliation claim under the First
Amendment, a public employee must plausibly allege
that “[he] spoke as a citizen on a matter of public concern.” Matthews v. City of New York, 779 F.3d 167, 172
(2d Cir. 2015) (citation omitted). A plaintiff speaks as a
government employee, rather than as a citizen, when
“[his] remarks were made pursuant to his official employment responsibilities.” Montero, 890 F.3d at 398.
Whether a plaintiff spoke as a citizen is a question of
law for the court to decide. See Singer v. Ferro, 711 F.3d
334, 339 (2d Cir. 2013). We have cautioned, however,
that “[this] inquiry . . . is not susceptible to a brightline
rule,” Ross v. Breslin, 693 F.3d 300, 306 (2d Cir. 2012),
because “speech can be pursuant to a public employee’s
official job duties even though it is not required by, or
included in, the employee’s job description,” Weintraub
v. Bd. of Educ. of City Sch. Dist. of City of N.Y., 593 F.3d
196, 203 (2d Cir. 2010) (internal quotation marks omitted). We have therefore adopted “a functional approach
toward evaluating an employee’s duties,” Matthews,
779 F.3d at 173, framing the “[u]ltimate . . . question
. . . [as] whether the employee’s speech was part-andparcel of that person’s concerns about his ability to
properly execute his duties,” Montero, 890 F.3d at 398
(internal quotation marks and alterations omitted).
In this case, Defendants-Appellees do not dispute
that Waronker’s statements concerned matters of
public concern, but they contend that Waronker’s

App. 7
statements were made pursuant to his official duties
as superintendent. However, Waronker does not plausibly allege that he was speaking as a citizen when he
publicly accused the School District of corruption. The
complaint makes clear that “root[ing] out [ ] corruption
and mismanagement” was “part-and-parcel” (in the
Montero formulation) of Waronker’s daily responsibilities as superintendent, even if, as Waronker claims on
appeal, it was not part of his formal job description.
Joint App’x 26. Waronker’s factual allegations further
make evident that he sent the Board Email and Community Letter pursuant to his official employment responsibilities. Not only do both of these communications
focus on Waronker’s efforts as superintendent to reform the School District, but Waronker signed the
Board Email using his official job title, “Superintendent of Schools,” and he posted the Community Letter
on the School District’s website.
As for the communications between Waronker
and law enforcement agencies that he referenced in
the Board Email, nothing in the complaint suggests
that he consulted with these agencies as a private citizen. Instead, as he explains in the Board Email,
Waronker felt “compelled” to contact law enforcement
because (1) the Board failed to take “corrective action”
after Waronker “rais[ed] questions about suspected illegal financial activity,” and (2) Waronker had “[a] professional, moral and legal obligation to serve the
District.” Joint App’x 29. Waronker therefore framed
his consultations with law enforcement as “a means to
fulfill, and undertaken [sic] in the course of performing,

App. 8
his primary employment responsibilit[ies].” Weintraub,
593 F.3d at 203 (internal citations and quotation
marks omitted). Indeed, Waronker all but concedes
this point when he notes that he consulted law enforcement “[a]s a fiduciary and as a guardian of the public
trust.” Joint App’x 29.
Nor is Waronker’s reliance on Lane v. Franks, 573
U.S. 228 (2014), persuasive. In that case, the Supreme
Court held that a state employee spoke as a citizen
when he gave sworn testimony in a judicial proceeding,
even though his testimony concerned certain corrupt
activities that he uncovered while acting pursuant to
his official duties. The Court explained that “[s]worn
testimony in judicial proceedings is a quintessential
example of speech as a citizen for a simple reason:
Anyone who testifies in court bears an obligation, to
the court and society at large, to tell the truth.” Id. at
238. Thus, the Court emphasized, it is this obligation
to tell the truth—an obligation that stands “distinct
and independent” from any obligation that a public
employee might owe to his employer—that “renders
sworn testimony speech as a citizen and sets it apart
from speech made purely in the capacity of an employee.” Id. at 239. Here, by contrast, Waronker did not
bear an obligation as a private citizen to communicate
with law enforcement about the School District’s corruption and mismanagement. Instead, as expressed in
the complaint, Waronker felt “compelled” to contact
law enforcement by “[his] professional, moral and legal
obligation to serve the District.” Joint App’x 29.

App. 9
Accordingly, we affirm the District Court’s dismissal of Waronker’s First Amendment claim on the
grounds that he failed to plausibly allege that he spoke
as a private citizen on a matter of public concern.
2. Procedural Due Process Claims
Waronker asserts two procedural due process
claims, one alleging deprivation of a protected property
interest, the other alleging deprivation of a protected
liberty interest. Neither survives review.
a. Property-Interest Claim
To establish a property-based procedural due process claim, “[a] plaintiff must show that state action
deprived her of a property interest protected by the
Fourteenth Amendment.” Velez v. Levy, 401 F.3d 75, 85
(2d Cir. 2005). We engage in “a two-step process” to determine whether a property interest is constitutionally
protected. O’Connor v. Pierson, 426 F.3d 187, 196 (2d
Cir. 2005). First, we determine “whether some source
of law other than the Constitution, such as a state or
federal statute, confers a property right on the plaintiff.” Id. Then, “[o]nce such a property right is found,
we determine whether that property right constitutes
a property interest for purposes of the Fourteenth
Amendment.” Id. (internal quotation marks omitted).
In this case, Waronker’s property-based procedural due process claim rests on the Board’s decision
to place him on a paid administrative leave of absence.
Under this Circuit’s precedents, however, an employee

App. 10
who is suspended is not deprived of a protected property interest “[so] long as the employee is receiving a
paycheck equivalent to his normal salary.” Tooly v.
Schwaller, 919 F.3d 165, 173 (2d Cir. 2019) (internal
quotation marks omitted). Thus, while “an employee
who is placed on unpaid leave has been deprived of a
protected property interest,” an employee who is
placed on paid leave “has only been deprived of a property interest triggering due process when he suffers a
financial loss.” Id. (emphasis omitted) (internal quotation marks omitted). Waronker does not assert, either
in his complaint or on appeal, that he was paid less
than his full salary while on administrative leave. His
suspension therefore does not provide an adequate basis for his procedural due process claim.
Nor can this claim rest on the allegations that
Waronker was suspended without “a prompt and
meaningful pre-suspension hearing.” Waronker’s Br.
47. Although Waronker was entitled to such process
under his employment contract, a pre-suspension
hearing is “not an end in itself,” but instead “has value
only because it may lead to something valuable,”
namely, avoiding suspension. McMenemy v. City of
Rochester, 241 F.3d 279, 287 (2d Cir. 2001); see also
Martz v. Incorporated Village of Valley Stream, 22 F.3d
26, 31 (2d Cir. 1994) (“Thus, where a breach of contract
does not give rise to a deprivation of a protectible property interest, plaintiff ’s exclusive remedy lies in state
court for breach of contract.” (internal quotation marks
omitted)). Procedural due process, however, “protects
only important and substantial expectations in life,

App. 11
liberty, and property”; it “does not protect “trivial and
insubstantial interests.” N.Y. State Nat’l Org. for
Women v. Pataki, 261 F.3d 156, 164 (2d Cir. 2001) (internal quotation marks and alterations omitted). Thus,
because a pre-suspension hearing does not constitute
an independent substantive right, much less one that
implicates “important and substantial” property interests, Defendants-Appellees did not deprive Waronker
of a constitutionally protected interest when they suspended him without a hearing. Id.
Accordingly, we affirm the District Court’s dismissal of Waronker’s property-based procedural due process claim.
b. Liberty-Interest Claim
Waronker also brings a “stigma-plus” claim, which
we have described as “a species within the phylum of
[liberty-based] procedural due process claims.” Segal
v. City of New York, 459 F.3d 207, 213 (2d Cir. 2006). To
prevail on such a claim, a plaintiff must plausibly allege “(1) the utterance of a statement sufficiently derogatory to injure his or her reputation, that is capable
of being proved false, and that he or she claims is
false, and (2) a material state-imposed burden or stateimposed alteration of the plaintiff ’s status or rights.”
Sadallah v. City of Utica, 383 F.3d 34, 38 (2d Cir. 2004)
(internal quotation marks omitted).
The District Court dismissed Waronker’s claim
on the first prong of the stigma-plus test, correctly concluding that the complaint failed to identify any “false,

App. 12
stigmatizing statements” that Defendants-Appellees
made about Waronker. Waronker v. Hempstead Union
Free Sch. Dist., No. 2:18-cv-393(DRH)(SIL), 2019 WL
235646, at *5 (E.D.N.Y. Jan. 16, 2019). On appeal,
Waronker does not seriously contest this conclusion,
nor can he: beyond conclusory assertions that Defendants-Appellees “subjected [Waronker] to scandalous
claims and investigations,” Joint App’x 34, the complaint is devoid of any specific statements made about
him, much less ones capable of supporting a stigmaplus claim. Instead, Waronker argues that, if the District Court had permitted him leave to amend his complaint, he would have alleged statements that were
sufficiently stigmatizing.
We need not resolve, however, whether Waronker’s
proposed amendments to the complaint would satisfy
the “stigma” requirement of a stigma-plus claim, because even assuming they would, the complaint still
fails to satisfy the “plus” requirement. To plead an adequate “plus” factor, a plaintiff must identify “some
tangible and material state-imposed burden” that is
separate from the deleterious effects flowing directly
from the stigmatizing statement. Velez, 401 F.3d at 87
(internal citation omitted); see also Sadallah, 383 F.3d
at 38 (“[The] deleterious effects flowing directly from a
sullied reputation, standing alone, do not constitute a
plus under the stigma plus doctrine.” (internal quotation marks and alterations omitted)). Burdens that
satisfy the “plus” prong include “the deprivation of a
plaintiff ’s property and the termination of a plaintiff ’s
government employment.” Sadallah, 383 F.3d at 38

App. 13
(internal citations omitted). By contrast, our precedent
instructs that a plaintiff ’s temporary suspension from
work does not constitute an adequate “plus” factor if
the plaintiff suffers no financial loss. See Patterson v.
City of Utica, 370 F.3d 322, 332 (2d Cir. 2004) (“It cannot, as a matter of law, be viewed as a significant alteration of plaintiff ’s employment status when, in fact, he
was quickly hired back in the same position from
which he was supposedly fired.”); Dobosz v. Walsh, 892
F.2d 1135, 1137-38, 1140 (2d Cir. 1989) (holding that
plaintiff ’s five-month suspension did not constitute a
sufficient plus factor because plaintiff was later reinstated with back pay and seniority credit).
Waronker’s placement on administrative leave does
not satisfy the “plus” requirement because, as noted
above, nothing in the complaint suggests that he suffered a financial loss as a result of his suspensions. Nor
can Waronker avoid dismissal of his stigma-plus claim
by simply alleging that he suffered “public abuse and
humiliation” at the hands of Defendants-Appellees.
Waronker’s Br. 41. Instead, Waronker must identify
“a state-imposed burden or alteration of status . . .
[that is] in addition to the stigmatizing statement.”
Sadallah, 383 F.3d at 38 (internal quotation marks
omitted). Because the complaint fails to do so,
Waronker’s stigma-plus claim does not survive. Thus,
even assuming arguendo that Waronker plausibly alleged a stigmatizing statement, we would nevertheless
affirm the District Court’s dismissal of his liberty-based
procedural due process claim for failure to plead an adequate “plus” factor.

App. 14
3. State-Law Claims
The District Court dismissed Waronker’s statelaw claims for retaliation and breach of contract on
two grounds. First, it held that the claims were barred
by section 3813(1) of the New York Education Law,
which provides, in essence, that a plaintiff may not
maintain an action against a school district unless the
plaintiff has previously filed a “written verified claim”
with the school district within three months after the
accrual of the action. N.Y. Educ. Law § 3813(1). The
District Court then proceeded to conclude that, even
if section 3813(1) did not bar Waronker’s state-law
claims, dismissal was warranted because the Court
had decided not to exercise supplemental jurisdiction
over Waronker’s remaining state-law claims.
It is preferable for the court to address the matter
of its own jurisdiction before considering the substance
of a claim. See Sinochem Int’l Co. v. Malaysia Int’l Shipping Corp., 549 U.S. 422, 430-31 (2007) (“[A] federal
court generally may not rule on the merits of a case
without first determining that it has jurisdiction over
the category of claim in suit. . . .”). Indeed, because the
District Court declined to exercise supplemental jurisdiction over Waronker’s state-law claims, it had no jurisdiction to decide the state law question of whether
section 3813(1) precluded Waronker from bringing
these claims against Defendants-Appellants.
In the past, we have vacated and remanded where
(1) “it [was] unclear whether the dismissal of . . . [a
state-law claim] was on the merits or based on a

App. 15
decision not to exercise supplemental jurisdiction,”
and (2) the district court’s judgment did not specify
whether the state-law claim was “dismissed with or
without prejudice.” Wegner v. Upstate Farms Coop.,
Inc., 560 F. App’x 22, 27 (2d Cir. 2014). Here, however,
the District Court explicitly declined to exercise its
supplemental jurisdiction; its remarks leave no doubt
that it intended to dismiss Waronker’s state-law claims
without prejudice so that they could “be re-filed in
state court where the Parties will be afforded a surerfooted reading of applicable law.” Waronker, 2019 WL
235646, at *8 (internal quotation marks and alterations omitted). Moreover, we find no abuse of discretion
in the District Court’s decision not to exercise supplemental jurisdiction. See Denney v. Deutsche Bank AG,
443 F.3d 253, 266 (2d Cir. 2006) (“A district court usually should decline the exercise of supplemental jurisdiction when all federal claims have been dismissed at
the pleading stage.”). Accordingly, we affirm the District Court’s dismissal of Waronker’s state-law claims,
emphasizing that this dismissal is without prejudice.
We do not express any view on the application of section 3813 of the New York Education Law to the facts
at hand.
4. Leave to Amend the Complaint
Finally, Waronker asserts that the District Court
erred by denying him leave to amend his complaint so
as to add allegations concerning certain “Specifications and Charges” filed against him by the School District. These Specifications and Charges are relevant,

App. 16
Waronker contends on appeal, to his allegations that
Defendants-Appellees made stigmatizing statements
about him. As we explained above, however, even if
the complaint alleged a sufficiently stigmatizing statement, Waronker’s stigma-plus claim would still fail as
a matter of law because he did not allege facts satisfying the “plus” (burden) requirement under this doctrine. Nothing else in Waronker’s motion to the District
Court, or in his briefs on appeal, suggests that the
Specifications and Charges contain facts that would
save his complaint from dismissal on that ground.
Where, as here, “the plaintiff is unable to demonstrate
that he would be able to amend his complaint in a
manner which would survive dismissal, opportunity
to replead is rightfully denied.” Hayden v. County of
Nassau, 180 F.3d 42, 53 (2d Cir. 1999). We therefore
conclude that the District Court did not err by denying
Waronker’s motion to amend his complaint.
***
We have considered Waronker’s remaining arguments and conclude that they are without merit. For
the foregoing reasons, the District Court’s judgment is
AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court
[SEAL]
/s/ Catherine O’Hagan Wolfe

App. 17
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------- X
SHIMON WARONKER,
Plaintiff,
- against -

MEMORANDUM
AND ORDER
2:18-cv-393
(DRH)(SIL)

HEMPSTEAD UNION FREE
SCHOOL DISTRICT, BOARD (Filed Jan. 16, 2019)
OF EDUCATION OF THE
HEMPSTEAD SCHOOL
DISTRICT, DAVID B. GATES,
in his individual and official
capacity, RANDY STITH, in his
individual and official capacity,
LAMONT E. JACKSON, in his
individual and official capacity,
PATRICIA WRIGHT, in her
official capacity as Clerk of the
Hempstead School District,
Defendants.
----------------------------------------- X
APPEARANCES
LAW OFFICES OF FREDERICK K. BREWINGTON
Attorneys for Plaintiff
556 Peninsula Boulevard
Hempstead, NY 11550
By: Frederick K. Brewington, Esq.
Cathryn Harris-Marchesi, Esq.
Julissa M. Proano, Esq.

App. 18
THE SCHER LAW FIRM, LLP
Attorney for Defendant
1 Old Country Rd., Suite 385
Carle Place, NY 11514
By: Austin R. Graff, Esq.
HURLEY, Senior District Judge:
INTRODUCTION
Plaintiff Dr. Shimon Waronker (“Plaintiff ”) brought
this action against Defendants Hempstead Union Free
School District (“School District”), the Board Of Education of the Hempstead School District (“Board”),
David B. Gates (“Gates”), in his individual and official
capacity, Randy Stith, in his individual and official
capacity, Lamont E. Jackson (“Jackson”), in his individual and official capacity, and Patricia Wright, in her
official capacity as Clerk of the Hempstead School
District (collectively, “Defendants”) for violations of his
rights under 42 U.S.C. § 1983, the First and Fourteenth
Amendments of the U.S. Constitution, and state whistleblower protections, as well as breach of contract.
Presently before the Court is Defendant’s motion
to dismiss pursuant to Fed. R. Civ. P. (“Rule”) 12(b)(1)
for lack of subject matter jurisdiction, and Rule 12(b)(6)
for failure to state a claim. For the reasons discussed
below, the motion to dismiss is granted as to all claims.
Additionally, the Court has considered Plaintiff ’s request to supplement his previously filed opposition to
Defendants’ Motion to Dismiss, and to amend the
Complaint. As explained below, Plaintiff ’s request is
denied.

App. 19
BACKGROUND
The following relevant facts come from the Amended
Complaint and are assumed true for purposes of this
motion.
The School District has had a fraught history of
violence, gang activity, low graduation rates, inadequate
resources, and dilapidated facilities. (Compl. [DE 1]
¶ 32.) Plaintiff has successfully “transformed” schools
with academic, funding, and leadership challenges in
the South Bronx, Brownsville, and East Flatbush. (Id.
¶ 14.) When the School District posted an opening for
a new superintendent in 2017, Plaintiff submitted an
application. (Id. ¶ 15.) Plaintiff was scheduled for an
in-person interview with the Board on April 4, 2017.
(Id. ¶ 16.) Upon his arrival for the interview he was
informed that a minority of the Board had put in a restraining order against the majority of the Board because of the location of the interview. (Id.) Thereafter,
Plaintiff had two interviews with all five members of
the Board. (Id. ¶¶ 17–18.) The Board expressed interest in hiring Plaintiff and began negotiating a contract.
(Id. ¶ 19.) In negotiating the contract, Plaintiff “expressed the importance of having the ability as Superintendent of working with organizations that he ha[d]
worked with or been affiliated with in the past when
transforming schools.” (Id. ¶ 20.) As such, Plaintiff ’s
employment contract specifically provides that he had
established professional or financial relationships with
four delineated organizations, and that he [sic] while he
may recommend that the District “enter into transactions” with these organizations he would not draw any

App. 20
compensation from these entities to eliminate possible
conflicts of interest. (Id.) The four organizations were:
(1) The Harvard Graduate School of Education; (2) The
National Board for Professional Teaching Standards;
(3) The New American Initiative; and (4) The New York
City Leadership Academy. (Id.)
In 2017, after Plaintiff took the job as Superintendent for the District, he brought in special investigators and a forensic auditing firm to review the school’s
entrenched financial woes, as well as a deputy superintendent to deal with the violence plaguing the school.
(Id. ¶ 120.) Plaintiff himself conducted a review of over
1,500 high school students’ transcripts and discovered
that 75% would not graduate and receive a high
school diploma. (Id. ¶ 51.) Additionally, students in the
ninth grade were taking eleventh grade history, and
only 17% of students were passing the exam. (Id. ¶ 55.)
Plaintiff also learned that students in the middle
school were allowed to continue to the next grade even
if they failed all of their classes. (Id. ¶ 53.) Plaintiff provides many other such examples of academic mismanagement in the Complaint. In addition to the academic
review, Plaintiff also oversaw a facilities review in
2017. (Id. ¶ 71.) As part of this review, Plaintiff found
that 1,600 students were studying “in crumbling and
moldy trailers, some of which [were] 34 years old” and
that the buildings had vermin infestations, decaying
boilers, flooding, burst pipes, and graffiti. (Id.) An examination of the District’s payroll revealed 295 distributions to 129 individuals who were not active
employees of the District at the time of the payroll

App. 21
distribution, in addition to other financial mismanagement. (Id. ¶ 77.) Notably, “a great deal of the financial
records were burned prior to [Plaintiff ’s] arrival” when
the documents were due to be presented to the forensic
auditors. (Id. ¶ 122.)
In June 2017, with the Board’s approval, Plaintiff
hired New American Initiative to help improve the
school. (Id. ¶ 125.) Additionally, four Master teachers
“were hired to help improve the pedagogy of the District.” (Id. ¶ 125.) Also in June, Plaintiff terminated
the Assistant Superintendent for Business & Operations due to his inability to disclose to Plaintiff the
amount of money in the budget. (Id. ¶ 127.) Thereafter,
Plaintiff terminated High School Principal Stephen
Strachan for undisclosed “serious issues.” (Id. ¶ 128.)
During this time, an independent group named
“Hempstead for Hempstead” founded by former Board
member Thomas Parsley1 began sowing opposition to
Plaintiff. (Id. ¶ 130. Hempstead for Hempstead told
Plaintiff when he terminated Principal Strachen [sic]
that “there would be war.” (Id. ¶ 129.)
In July 2017, Board Member Jackson was removed
from the Board after a hearing. (Id. ¶ 131.) In August
2017, Plaintiff arranged a conflict mediation training
for the Board and Cabinet-level officers; three of the
Board members attended, but the other two refused
to attend. (Id. ¶ 134.) When Plaintiff asked Board
1

Mr. Parsley was allegedly removed from the Board after
being convicted for Grand Larceny as well as a sexual offense.
(Compl. ¶ 130.)

App. 22
member Gates why he missed the training, Gates responded: “I don’t trust you, you are my enemy.” (Id.
¶ 135.) In September 2017, the Commissioner of Education appointed Dr. Jack Bierwirth as a “Distringuished Educator” to oversee the District. (Id. ¶ 142.)
Only one other school district in New York State was
subject to this type of oversight. (Id.)
On November 29, 2017, the Board called an emergency session and fired the Special Investigators looking
into abuse, mismanagement, and possible corruption.
(Id. ¶ 144.) In response, Plaintiff sent an e-mail to each
of the Board members on December 6, 2017 (hereinafter “Board E-mail”), which stated in relevant part:
I am advising the Board that after raising
questions about suspected illegal financial activity to members of the District, no corrective
action has taken place. As a fiduciary and as
a guardian of the public trust I have been
compelled to consult with several law enforcement agencies on the local, state, and federal
level about disturbing facts which have become apparent to me, which I felt could not
and should not be occurring. These matters
are of a nature that endanger the public
health, welfare, and safety of our district and
appear to be both unlawful and unethical, and
required disclosure to, and an evaluation by,
governmental offices outside the confines of
the Hempstead School District.
The need to provide this information was
mandated by two factors: first, the fact that
instead of corrective action, I am seeing the

App. 23
opposite; and second, my professional, moral,
and legal obligation to serve the District and
those who are truly the consumers – our children – and the community at large.
(Id. ¶ 145.) The next day, in a meeting with the Board,
Plaintiff recommended that the District tear down a
building and issue a bond to rebuild a school on that
site. (Id. ¶ 146.) The Board voted down the resolution
3 to 2. (Id.) On December 22, 2017, without any notice,
the Board suspended Plaintiff ’s authority, fired the
expert teachers Plaintiff had hired, and terminated
the School District’s contract with the New American
Initiative. (Id. ¶¶ 147–48.)
On January 5, 2018, Plaintiff distributed an open
letter to the community and posted the same on the
District website. (Id. ¶150.) The letter, entitled “Collaborate and Elevate” (hereinafter “Collaborate and Elevate Letter”), summarized the work that had been
accomplished in the first six months, and went on to
state:
Collaborate with me to make Hempstead
Schools thrive again. If we are honest, the
need of working together on all these levels
must be admitted as something that is obvious. Politics, self-interests, patronage, vendettas, threats, and cover-ups cannot rule the
day. Our collective goal must be to elevate the
standards for all involved in and attached to
the Hempstead School District. The transformation which is necessary in Hempstead will
not happen without hard work, transparency,

App. 24
honesty, and commitment to meaningful
change.
(Id. ¶ 151.) The letter went on to ask every member of
the community to help in this effort. (Id.)
On January 9, 2017 [sic], the Board voted 3 to 2 to
place Plaintiff on “Administrative Leave of Absence
with Pay, Effective Immediately.” (Id. ¶ 152.) There was
no hearing, and no charges were brought against Plaintiff. (Id. ¶ 153.) The same night, the Board adopted a
modified Administrative Leave of Absence with Pay
Policy, which it then used against Plaintiff. (Id. ¶ 154.)
Also on January 9, 2018, the master teachers who the
Board had fired decided to volunteer their time to
complete an application for a $5.4 million grant for the
District. (Id. ¶ 155.) In response, the Board issued a
resolution directing the District’s Superintendent to
“prohibit the Master Teachers who were excessed on
December 21, 2017, and are no longer employees of the
District, effective December 22, 2017, from volunteering to provide services or rendering any services to the
District.” (Id. ¶ 156.)
Plaintiff brought the instant action by Order to
Show Cause on January 19, 2018, seeking a temporary
restraining order (“TRO”) vacating the Board’s January 9, 2018 resolutions and restoring Plaintiff to his
position. (Proposed Order to Show Cause [DE 3] at 1.)
The Court held an initial hearing that day, and then
asked the Parties to brief the issue of subject matter
jurisdiction. The Court held a further hearing on January 30, 2018, and denied the TRO as Plaintiff had

App. 25
failed to state a claim upon which relief could be
granted. Defendants filed the fully briefed motion to
dismiss on April 16, 2018.
DISCUSSION
I.

Plaintiffs’ Claims

In the Complaint, Plaintiff sets forth five causes
of action: (1) a Monell claim for municipal liability for
violations of Plaintiff ’s Fourteenth Amendment rights
pursuant to 42 U.S.C. § 1983 (“§ 1983”); (2) violations
of Plaintiff ’s due process rights pursuant to the Fourteenth Amendment; (3) violations of Plaintiff ’s First
Amendment rights; (4) violations of state law whistleblower protections; and (5) breach of Plaintiff ’s employment contract.
II.

The Motion to Dismiss Pursuant to Rule 12(b)(6)
is Granted
A. Rule 12(b)(6) Legal Standard

In deciding a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6), a court should “draw
all reasonable inferences in Plaintiff[‘s] favor, assume
all well-pleaded factual allegations to be true, and determine whether they plausibly give rise to an entitlement to relief.” Faber v. Metro. Life Ins. Co., 648 F.3d
98, 104 (2d Cir. 2011) (internal quotation marks omitted). The plausibility standard is guided by two principles. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing

App. 26
Bell Atl. Corp. v. Twombly, 550 U.S. 544 (2007)); accord
Harris v. Mills, 572 F.3d 66, 71–72 (2d Cir. 2009).
First, the principle that a court must accept all allegations as true is inapplicable to legal conclusions.
Thus, “threadbare recitals of the elements of a cause of
action supported by mere conclusory statements, do
not suffice.” Iqbal, 556 U.S. at 678. Although “legal conclusions can provide the framework of a complaint,
they must be supported by factual allegations.” Id. at
679. A plaintiff must provide facts sufficient to allow
each named defendant to have a fair understanding of
what the plaintiff is complaining about and to know
whether there is a legal basis for recovery. See
Twombly, 550 U.S. at 555.
Second, only complaints that state a “plausible
claim for relief ” can survive a motion to dismiss. Iqbal,
556 U.S. at 679. “A claim has facial plausibility when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged. The plausibility standard is not akin to a ‘probability requirement,’
but asks for more than a sheer possibility that defendant acted unlawfully. Where a complaint pleads facts
that are ‘merely consistent with’ a defendant’s liability,
it ‘stops short of the line’ between possibility and plausibility of ‘entitlement to relief.’ ” Id. at 678 (quoting
Twombly, 550 U.S. at 556-57) (internal citations omitted); see In re Elevator Antitrust Litig., 502 F.3d 47, 50
(2d Cir. 2007). Determining whether a complaint plausibly states a claim for relief is “a context specific
task that requires the reviewing court to draw on its

App. 27
judicial experience and common sense.” Iqbal, 556 U.S.
at 679; accord Harris, 572 F.3d at 72.
B. The Motion to Dismiss is Granted as to
Claims One and Two: Procedural Due Process
Claim
1. Applicable Law
To state a claim for a procedural due process violation a plaintiff must “first identify a property right,
second show that the [government] has deprived him
of that right, and third show that the deprivation was
effected without due process.” Local 342, Long Island
Pub. Serv. Emps., UMD, ILA, AFL-CIO v. Town Bd. of
Huntington, 31 F.3d 1191, 1194 (2d Cir. 1994) (citation
omitted).
Applying this test to the facts at bar, the Court
must first consider whether Plaintiff had a property
right. Here, Plaintiff claims that as a public employee
he had “a constitutionally protected property interest
in his tenure” that could not be terminated without due
process. (Compl. ¶ 162.) This argument is unavailing.
While the due process clause secures private interests
against public deprivation, “governmental powers are
not themselves private property [as] [t]hey do not exist
independently of the government and are not secured
against governmental interference.” Batagiannis v.
West Lafayette Community School Corp., 454 F. 3d 738,
741–42 (7th Cir. 2006). As the Seventh Circuit has
noted, “[e]very appellate decision that has addressed
the subject accordingly has held that a contractual

App. 28
right to be a superintendent of schools creates a property interest in the salary of that office but not the ability to make decisions on behalf of the public. Id. (citing
Royster v. Bd. of Trustees, 774 F.2d 618 (4th Cir. 1985);
Kinsey v. Salado Independent School Dist, 950 F.2d 988
(5th Cir. 1992); Holloway v. Reeves, 277 F.3d 1035 (8th
Cir. 2002); Harris v. Bd. of Educ., 105 F.3d 591, 596–97
(11th Cir. 1997) (dictum; appeal was resolved on immunity grounds)). While the Second Circuit has not
specifically considered this question, other district
courts in this Circuit have held that no liberty or property interest was infringed when a superintendent was
suspended with pay and lost only “the ability to fulfill
the function of superintendent[.]” See Watkins v.
McConologue, 820 F. Supp. 70, 72 (S.D.N.Y. 1992).
Moreover, it is well-established precedent in this Circuit that an employee who continues to be paid “cannot
sustain a claim for deprivation of property without due
process even if relieved from job duties.” See Ingber v.
New York City Dep’t of Educ., No. 14-CV-3942, 2014 WL
6888777, at *2 (S.D.N.Y. Dec. 8, 2014).
In addition to his standard procedural due process
claim, Plaintiff also asserts a “stigma plus” claim for
an infringement of his liberty interest. A liberty interest is a “broad notion” that encompasses the freedom
“to engage in any of the common occupations of life.”
Donato v. Plainview-Old Bethpage Cent. Sch. Dist., 96
F.3d 623, 630 (2d Cir. 1996). “Special aggravating circumstances are needed to implicate a liberty interest[,]” such as when the state fires an employee and
publicly charges that she or he acted dishonestly or

App. 29
immorally. Id. In Patterson v. City of Utica, the Second
Circuit established a stigma plus claim that can invoke
the Due Process Clause when the “[l]oss of one’s reputation . . . is coupled with the deprivation of a more
tangible interest, such as government employment.”
370 F.3d 322, 330 (2d Cir. 2004) (citing Bd. of Regents
of State Colleges v. Roth, 408 U.S. 564, 573 (1972)). For
a government employee, a stigma plus claim “may
arise when an alleged government defamation occurs
in the course of dismissal from government employment.” Id. The Second Circuit later explained that a
stigma plus claim requires stigmatizing false statements that are publicized. O’Connor v. Pierson, 426
F.3d 187, 195–96 (2d Cir. 2005) (finding that plaintiff
had alleged “the plus without the stigma, and [rejecting the argument] that the plus alone has created the
stigma” because negative inferences by the community
based on a suspension were not enough to make out a
stigma-plus claim). “Courts have consistently held that
statements announcing personnel decisions, even
when leaked to the press, and even when a reader
might infer something unfavorable about the employee, are not actionable.” Weise v. Kelley, 2009 WL
2902513, at *4 (S.D.N.Y. Sept. 10, 2009). Moreover,
“true public statements that a party is under investigation” are not stigmatizing for purposes of a stigmaplus claim. Id.

App. 30
2. The Motion to Dismiss is Granted as to
Claims One and Two
With regards to Plaintiff ’s procedural due process
claim, Plaintiff was suspended with pay so the question of whether he had a property interest in his position as a superintendent is effectively academic.
Plaintiff cannot sustain a due process claim in light of
the undisputed fact that he was suspended with pay.
However, even if Plaintiff had been terminated or suspended without pay, the Court is persuaded by the consensus in other Circuits and district courts in this
Circuit that superintendents have no property right in
their position.
Plaintiff argues that in determining whether he
has a property interest in his position for purposes of
procedural due process, the Court should look to
whether his interest would be protected under state
law. (Mem. in Opp. at 10 (citing Harhay v. Town of
Ellington Bd. of Educ., 323 F.3d 206, 212 (2d Cir.
2003)). Plaintiff then attempts to manufacture a property interest by connecting the provision in N.Y. Educ.
Law § 1711(3) that “a board of education may enter
into a contract with [a] superintendent . . . upon such
terms as shall be mutually acceptable to the parties,
including but not limited to fringe benefits and procedures for termination by either party[,]” with the language in his contract that provides that he cannot be
suspended or terminated without just cause and a
hearing before an impartial hearing officer. (See Mem.
in Opp. at 10–11.) The Court is not swayed by this argument as “[n]ot every contractual benefit rises to the

App. 31
level of a constitutionally protected property interest.”
Harhay, 323 F.3d at 212 (citing Ezekwo v. New York
City Health & Hospitals Corp., 940 F.2d 775, 782 (2d
Cir. 2003)). More fatally still, Plaintiff ’s reasoning fails
to address the profound constitutional issues with establishing a property interest in “the ability to make
decisions on behalf of the public.” See Batagiannis, 454
F. 3d at 741–42. Accordingly, the Court finds that
Plaintiff did not have a property interest in the superintendent position as distinct from his superintendent
salary.
Alternatively, Plaintiff sets forth a stigma-plus
claim that his liberty interest was infringed upon by
his suspension. A stigma-plus claim requires false,
stigmatizing statements. Here, the Complaint does not
set forth any such allegations. Even if Defendants
made statements that they were investigating Plaintiff, these statements are true and therefore do not
meet the requirement of a “false, stigmatizing claim.”
See Weise, 2009 WL 2902513, at *4. Since the suspension alone cannot give rise to a stigma-plus claim, this
claim must be dismissed.
As Plaintiff did not have a property interest in his
superintendent position or a liberty interest that was
violated by his suspension, the Court will not proceed
to consider the other elements of a procedural due
process violation. Defendants’ motion to dismiss is
granted as to Plaintiff ’s first and second claims.

App. 32
C. The Motion to Dismiss is Granted as to Claim
Three: First Amendment
1. Applicable Law
To prevail on a First Amendment retaliation claim,
a plaintiff must prove “(1) [his or her] speech or conduct was protected by the First Amendment; (2) the
defendant took an adverse action against [him or her];
and (3) there was a causal connection between this adverse action and the protected speech.” Cox v. Warwick
Valley Cent. Sch. Dist., 654 F.3d 267, 272 (2d Cir. 2011).
“When public employees make statements pursuant to their official duties, the employees are not
speaking as citizens for First Amendment purposes,
and the Constitution does not insulate their communications from employer discipline.” Garcetti v. Ceballos,
547 U.S. 410, 421 (2006). However, there are times
when a public employee’s speech falls within the ambit of the First Amendment. To determine whether a
public employee’s speech is protected, courts conduct a
two-step inquiry. Matthews v. City of New York, 779
F.3d 167, 172 (2d Cir. 2015). First, the court “determin[es] whether the employee spoke as a citizen on
a matter of public concern. Id. (quoting Garcetti v.
Ceballos, 547 U.S. 410, 418 (2006)). An employee speaks
as a citizen if the speech fell outside of the employee’s
official responsibilities, and a civilian analogue existed.
Matthews, 779 F.3d at 172 (citing Weintraub v. Bd. of
Educ., 593 F.3d 196, 203–04 (2d Cir. 2010)). This is a
conjunctive test. “If an employee did not speak as a
citizen on a matter of public concern, the inquiry
ends—the speech was not constitutionally protected.”

App. 33
Alvarez v. Staple, 2018 WL 5312901, at *7 (S.D.N.Y.
Oct. 26, 2018).
2. The Motion to Dismiss is Granted as to
Claim Three
Plaintiff claims that Defendants retaliated against
him when he exercised his right to free speech by sending the aforementioned Board E-mail and Collaborate
and Elevate Letter to the community. Here, Plaintiff is
a public employee so the Court must evaluate whether
he spoke as a citizen on a matter of public concern.
Based on the Matthews test, the Court finds that Plaintiff did not speak as a citizen. As set forth in the Complaint, the Board e-mail: (1) was sent by Plaintiff in his
capacity as Superintendent; (2) was signed by Plaintiff
using his Superintendent title; (3) explicitly discussed
his role and duties (“since my arrival here in Hempstead, my primary focus has been to raise the bar for
us in the District in terms of our effective delivery of
services for our children”) in the context of the letter’s
subject matter; and (4) was sent solely to the Board as
a means of providing counsel based on Plaintiff ’s experience and position as Superintendent. (See Compl.
¶ 145.) Likewise, the Collaborate and Elevate Letter
was posted on the District website by Plaintiff in his
capacity as superintendent. (Id. ¶ 151.) To wit, the
Complaint states that Plaintiff posted the Collaborate
and Elevate Letter “as part of [his] pledge to be transparent and keep the Community involved[.]” (Compl.
¶ 150.) The Complaint does not provide the full letter,
so the Court does not know whether Plaintiff signed

App. 34
the letter using his title or further discussing his role.
However, this is inconsequential because there is no
civilian analogue to the Superintendent posting a letter directly on the District website. Thus, Plaintiff sent
the Board E-mail and Collaborate and Elevate Letter
as a public employee pursuant to his official duties.
In sum, Plaintiff was hired to transform the District into an appropriately functioning educational
institution. (See Compl. ¶ 14 (“[Plaintiff ’s] past successful transformative efforts in schools located in the
South Bronx, Brownsville, and East Flatbush would
enable him to do what was necessary for the Hempstead School District”).) In an effort to accomplish
that core mission, he contacted members of law enforcement concerning perceived ongoing financial malfeasance within the District and, as the District’s
Superintendent, informed Board members of his actions in the Board E-mail. (Id. ¶ 145.) Similarly, in the
Collaborate and Elevate Letter, Plaintiff, as the Superintendent, sought the assistance of the community to
“[c]ollaborate with [him] to make Hempstead Schools
thrive again.” (Id. ¶ 151.) In each instance, he spoke as
an employee for First Amendment purposes. Accordingly, the Court need not proceed further with this inquiry and Defendants’ motion to dismiss is granted as
to Plaintiff ’s third claim.

App. 35
D. The Motion to Dismiss is Granted as to
Claim Four: N.Y. Civ. Serv. Law § 75-B; N.Y.
Lab. Law §§ 215, 740; and N.Y. Ed. Law
§ 3028-D
Plaintiff asserts a retaliation claim under New
York law, however this claim is barred for failure to file
a written verified claim with the School District and/or
the Board three months after the accrual of such claim
and before filing the instant action. See N.Y. Educ. Law
§ 3813(1). Plaintiff argues that there is no prejudice to
Defendants as a result of his failing to give the proper
notice, and that the “absence of an acceptable excuse
[for this oversight] is not necessarily fatal to the application.” (Mem. in Opp. at 28 (citing Lewin v. County
of Suffolk, 239 A.D.2d 345, 246 (2nd Dep’t 1997)). The
Court finds that, on the contrary, Plaintiff ’s failure to
comply with the explicit directives of N.Y. Educ. Law
§ 3813(1) is fatal because it prevented Defendants
from having an opportunity to investigate and cure
their alleged violation. See Chem. Const. Corp. v. Board
of Ed. of City of New York, 430 N.Y.S.2d 771, 772 (N.Y.
Sup. Ct. 1980) (“section 3813 is clearly intended to afford a school district the opportunity to investigate the
claims of all kinds to obtain the evidence promptly
while it is still readily available, and to adjust or make
payments before litigation is commenced” (internal
quotations and citations omitted)). This is especially
true in light of the circumstances of this case; namely
that Plaintiff was suspended with pay, and he was
therefore in a position to be able to follow the proper
procedures. Moreover, Plaintiff commenced this matter

App. 36
by way of a request for an Order to Show Cause hearing for a Temporary Restraining Order. In other words,
he sought immediate injunctive relief to alter the status quo before Defendants even had a chance to answer
the Complaint. In so doing, he usurped Defendants’
statutorily-provided opportunity to investigate and
cure the alleged violation. Plaintiff points to two exceptions § 3813(1)’s requirements, namely: (1) if the proceeding is a matter of public interest; and (2) if another
statute or contract either provides similar notice to
the school or if the school contracted away its right to
notice. (Mem. in Supp. at 30 (citing Matter of Grey v.
Board of Educ. Of Hudson Falls Cent. School Dist., 60
A.D.2d 361, 363 (1978)). Neither exception is applicable here. This is a case for Plaintiff to recover his
Superintendent position, and while he may believe
that is in the public interest, that is not the meaning
of a proceeding that is a matter of public interest.
“Although all actions brought to enforce civil rights can
be said to be in the public interest, only actions that
seek relief for a similarly situated class of the public
are entitled to relief from the notice of claim requirement.” Augustin v. Enlarged City School Dist. Of Newburgh, 616 F. Supp. 2d 422, 446 (S.D.N.Y. 2009) (citing
Bloom v. N.Y. City Bd. of Educ., 2003 WL 1740528, at
*4 (S.D.N.Y. Apr. 2, 2003)) (internal quotation marks
and citations omitted). A claim can be characterized as
enforcement of a private right—as opposed to a matter
of public interest—where the “allegations of discriminatory conduct on the part of the School District refer
only to conduct as it relates to [the plaintiff ].” Id. Here,
Plaintiff seeks enforcement of a private right, as he

App. 37
seeks relief on the basis that he alone was denied his
position as Superintendent in retaliation for exercising
his right to free speech. Thus, Plaintiff ’s claim does
not fall within the public interest exception to the
§ 3813(1) requirements.
Finally, Plaintiff has not pointed to any other statute or provision in his contract that replaced the notice
requirement of § 3813(1). As such, Defendants’ motion
to dismiss is granted as to Plaintiff ’s fourth claim.
E. The Motion to Dismiss is Granted as to Claim
Five: Breach of Contract
Plaintiff ’s final claim is for breach of his employment contract. As with his retaliation claim, this claim
is likewise barred for failure to file a written verified
claim with the School District and/or the Board three
months after the accrual of such claim and before
filing the instant action. See N.Y. Educ. Law § 3813(1).
Accordingly, Defendants’ motion is granted as to Plaintiff ’s fifth claim, and the entire matter is hereby dismissed.
As a final matter, the Court notes that even if
Plaintiff had met his obligation under N.Y. Educ. Law
§ 3813(1), “[i]t would [ ] be clearly inappropriate for the
district court to retain jurisdiction over the state law
claims when there is no basis for supplemental jurisdiction.” See, e.g., Cave v. East Meadow Union Free
School Dist., 514 F.3d 240, 250 (2d Cir. 2008) (affirming
a district court decision to dismiss state claims after
dismissing all federal claims related to a student’s

App. 38
individualized education plan under the Individuals
with Disabilities Education Act). A District Court may,
in its discretion, retain jurisdiction in certain circumstances over state claims even after dismissing all federal
claims. The Court declines to do so here. “[I]f federal
law claims are dismissed before trial . . . the state law
claims should be dismissed as well” unless federal policy concerns “argue in favor of exercising supplemental
jurisdiction even after all original-jurisdiction claims
have been dismissed.” Kolari v. New York-Presbyterian
Hosp., 455 F.3d 118, 122 (2d Cir. 2006) (quoting United
Mine Workers v. Gibbs, 383 U.S. 715 (1966)). Here, the
crux of this matter concerns issues of New York state
law. There are no commingled questions of federal law
or overriding federal policy concerns that remain.
Therefore, this matter should be “re-filed in state court
where [the Parties] will be afforded a ‘surer-footed
reading of applicable law.” Id.
III. The Motion to Dismiss Pursuant to Rule 12(b)(1)
The Court need not consider whether it has jurisdiction over this matter as it has already dismissed all
claims pursuant to Rule 12(b)(6).
IV.

Plaintiff ’s Request for Leave to Supplement/
Amend

On December 28, 2018, Plaintiff asked the Court
for leave to supplement his previously filed opposition
to Defendants’ Motion to dismiss, as well as to amend
the Complaint. Plaintiff asserts that this is necessary

App. 39
because he filed the Complaint and his opposition before receiving 41 “Specifications and Charges” brought
against him by Defendants in August 2018. Plaintiff
also avers that Defendants’ delay in selecting a Hearing Officer has some impact on this matter. While the
Court is sympathetic to Plaintiff ’s frustrations, his request is denied because there is no information related
to the delay or the charges that will alter the Court’s
decision. With or without the delay and the charges,
Plaintiff was still suspended with pay, he still likely
has no property interest in his superintendent position, and he will still fail to meet the Matthews test
for a First Amendment claim. The significance of the
delay and charges to Plaintiff ’s state claims, if any, is
irrelevant because the Court has declined to exercise
jurisdiction over those claims.
CONCLUSION
Notwithstanding the deeply troubling allegations
brought against the School District and the Board,
both with regards to their conduct toward Plaintiff
as well as the long history of apparent corruption
and neglect in the discharge of their duties, this is a
Court of limited jurisdiction and Plaintiff has not set
forth any actionable federal claims. Accordingly, Defendants’ motion to dismiss is granted in toto. The
Clerk of Court is directed to enter judgment and close
the case.

App. 40
SO ORDERED.
Dated: Central Islip, New York
January 16, 2019
/s/
Denis R. Hurley
United States District Judge

